HHS/OIG, Audit - "Medicaid Fee-for-Service Payments for Dually Eligible Medicare Managed Care Enrollees," (A-04-02-07007)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Fee-for-Service Payments for Dually Eligible Medicare Managed
Care Enrollees," (A-04-02-07007)
February 7, 2003
Complete Text of Report is available in PDF format
(556 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine the appropriateness of Medicaid
fee-for-service payments made on behalf of dually eligible beneficiaries enrolled
in Medicare health maintenance organizations (HMO) and to ensure that services
purchased from Medicare HMOs through capitation payments were not also paid
by Medicaid through a capitation payment.  We found that the Florida Agency
for Health Care Administration (FL-AHCA) made fee-for-service payments
that were the responsibility of Medicare HMOs.  In addition, capitation
payments were made to both Medicare and Medicaid HMOs on behalf of the same
beneficiary.  This occurred because the Florida Medicaid Management Information
System was not updated to reflect the enrollment of Medicaid beneficiaries in
Medicare HMOs.  As a result, FL-AHCA made over $3.9 million in improper
payments during our audit period ($2.2 million federal share).